           OFFICE OF
    THE INSPECTOR GENERAL

SOCIAL SECURITY ADMINISTRATION


   HAWAII DEPARTMENT OF HUMAN
   SERVICES – AN ORGANIZATIONAL
   REPRESENTATIVE PAYEE FOR THE
  SOCIAL SECURITY ADMINISTRATION

  September 2008   A-09-08-28045




 AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                              SOCIAL SECURITY
MEMORANDUM

Date:      September 2, 2008                                                                             Refer To:

To:        Peter D. Spencer
           Regional Commissioner
            San Francisco

From:      Inspector General

Subject:   Hawaii Department of Human Services – An Organizational Representative Payee for
           the Social Security Administration (A-09-08-28045)


           OBJECTIVE

           Our objectives were to determine whether the Hawaii Department of Human Services
           (HI-DHS) (1) had effective safeguards over the receipt and disbursement of Social
           Security benefits and (2) used and accounted for Social Security benefits in accordance
           with Social Security Administration (SSA) policies and procedures.

           BACKGROUND

           Some individuals cannot manage or direct the management of their finances because
           of their youth or mental and/or physical impairments. Congress granted SSA the
           authority to appoint representative payees to receive and manage these beneficiaries’ 1
           payments. 2 A representative payee may be an individual or an organization. SSA
           selects representative payees for Old-Age, Survivors and Disability Insurance (OASDI)
           beneficiaries or Supplemental Security Income (SSI) recipients when representative
           payments would serve the individuals’ interests. Representative payees are
           responsible for managing benefits 3 in the beneficiary’s best interest. Refer
           to Appendix B for additional representative payee responsibilities.




           1
             We use the term “beneficiary” generically in this report to refer to both OASDI beneficiaries and SSI
           recipients.
           2
               Social Security Act (Act) §§ 205(j) and 1631(a)(2), 42 U.S.C. §§ 405(j) and 1383(a)(2).
           3
               We use the term “benefits” generically in this report to refer to both OASDI benefits and SSI payments.
Page 2 - Peter D. Spencer

HI-DHS is a social services agency for the State of Hawaii. HI-DHS’ Social Services
Division, Child Welfare Services Branch, administers the foster care program for
Hawaii. HI-DHS provides adoption, foster care, and protective services to children and
their families. From July 1, 2006 through June 30, 2007, we estimate that HI-DHS
received about $740,000 in OASDI and SSI benefits on behalf of 191 children who
were in foster care. 4

As a representative payee, HI-DHS uses three operational units to fulfill its
responsibilities. These units include social workers, eligibility workers, and fiscal
employees. The social workers maintain contact with the beneficiaries and foster
homes and approve expenses necessary for the cost of care. The eligibility workers
apply for sources of funding on behalf of the beneficiaries. Within the Accounting unit,
the fiscal employees receive, record, and deposit the Social Security benefits.

RESULTS OF REVIEW
Our audit disclosed that HI-DHS did not (1) have effective safeguards over the receipt
and disbursement of Social Security benefits or (2) use and account for those benefits
in accordance with SSA policies and procedures. We found that 39 (78 percent) of the
50 beneficiaries in our sample had 1 or more errors. These errors generally occurred
because HI-DHS did not fully understand its representative payee responsibilities, and
there was a lack of communication within HI-DHS and between HI-DHS and SSA. As
a result, HI-DHS owed 36 beneficiaries $114,680 in conserved funds and needs to
repay SSA $65,180 in overpayments for 8 beneficiaries. We also estimate that HI-DHS
owes about $323,400 in conserved funds to an additional 101 children and was
overpaid about $183,790 in benefits for an additional 22 children (see Appendix D).
Specifically, HI-DHS

•   did not promptly report changes in beneficiary circumstances to SSA,

•   improperly accounted for the Social Security benefits of its beneficiaries, and

•   did not obtain SSA approval to use retroactive benefits to reimburse itself for prior
    foster care expenses.

Although we found significant deficiencies in HI-DHS’ representative payee activities,
interviews with a sample of foster care parents and children disclosed these children’s
basic needs were generally met. 5 In addition, HI-DHS has taken corrective action on




4
  We estimated the total OASDI and SSI benefits based on the amount paid to the 50 children in our
sample.
5
  We selected 10 beneficiaries for interviews, which were conducted by individuals from SSA’s field
offices in Hawaii.
Page 3 - Peter D. Spencer

some of the errors identified during our review and initiated plans to improve its
performance as a representative payee. However, SSA needs to ensure these
deficiencies have been fully addressed and corrected.

REPORTING CHANGES IN BENEFICIARY CIRCUMSTANCES

Our review disclosed that HI-DHS did not promptly report changes in beneficiary
circumstances to SSA. Specifically, we found that HI-DHS did not timely notify SSA
about (1) children who were no longer in its care, (2) children who moved into Hawaii
Department of Health (HI-DOH) foster homes, and (3) children who received concurrent
SSI and Title IV-E benefits.

SSA policy requires that representative payees report any changes to SSA that may
affect the individual’s entitlement or amount of payment. Representative payees
must report any changes of custody and return any benefits to which the beneficiary
                                                                                      6
is not entitled. Any conserved funds or unused benefits must be returned to SSA. In
addition, SSA’s Guide for Organizational Representative Payees requires that payees
report to SSA if a child beneficiary moves, dies, works, is incarcerated, begins to live
                                           7
with someone else, is adopted or marries.

Children Who Were No Longer in HI-DHS’ Care

HI-DHS did not timely report to SSA nine children who were no longer in its care. We
found that four of these children had been adopted and the remaining five were not in
HI-DHS’ care for various reasons, such as incarceration. Since SSA was unaware of
these changes, it continued to make payments to HI-DHS on behalf of these children.
As a result, HI-DHS received $51,300 in improper payments, including $30,470 in
overpayments and $20,830 in benefits that should have been returned to SSA.

HI-DHS had not established adequate controls to report changes in custody to SSA
timely. HI-DHS relied on its social workers to notify both SSA and its Accounting unit
when a child had left its care. However, HI-DHS did not ensure that changes in custody
were reported timely.

For example, in October 2003, HI-DHS was selected as the representative payee for
a child who received SSI. The child was incarcerated in June 2004 and remained
confined until April 2007. HI-DHS’ jurisdiction over this child was terminated in
June 2006. However, SSA was not notified about these events and continued to make
SSI payments to HI-DHS through April 2007. Although HI-DHS did not pay for any
costs of the child’s care after June 2004, the Accounting unit placed all the SSI
payments in Hawaii’s general fund to reimburse the State for its care. As a result,


6
    SSA, Program Operations Manual System (POMS) GN 00502.113.D.1.
7
 Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2005, pages 10, 22, and 26.
Page 4 - Peter D. Spencer

HI-DHS improperly received $19,496 in SSI payments for 33 months after the child had
been incarcerated. Finally, as a result of our audit, SSA obtained the dates the child
was incarcerated so it could establish and recover the overpayment.

Children Who Moved into HI-DOH Foster Homes

HI-DHS did not report to SSA that four children had moved into HI-DOH foster homes.
These children were placed in therapeutic foster homes and residential settings that
provided specialized services through HI-DOH. Although HI-DHS still had legal custody
of these children, it did not pay for the cost of the children’s care during their time in
the foster homes. SSA continued to disburse OASDI and SSI payments to HI-DHS
because it was not aware of these changes. The Accounting unit was also unaware
of these changes and improperly placed most of the benefits in Hawaii’s general fund to
reimburse itself for the cost of the children’s care. As a result, HI-DHS received
$29,790 in SSI overpayments and $12,600 in OASDI and SSI payments that should
have been saved or used for the children’s other needs.

Two of the four children were receiving OASDI benefits. HI-DHS should have saved
or spent these benefits for the children’s other needs. The remaining two children
received SSI payments that should have been saved or spent on their behalf. Had
most of these benefits been saved, the children would have exceeded the $2,000 SSI
resource limit in about 5 months after they entered the HI-DOH foster homes. Since
the Accounting unit was unaware that HI-DHS had not paid for the cost of care for
these four children, it improperly placed $42,390 into Hawaii’s general fund rather than
saving or spending the benefits on the children’s behalf.

Children Who Received Concurrent SSI and Title IV-E Benefits

HI-DHS did not report to SSA that it received Title IV-E benefits for two SSI recipients.
Although HI-DHS generally does not obtain Title IV-E benefits for children who receive
SSI payments, it needs to ensure these events are reported to SSA timely. As a result,
two SSI recipients were overpaid $4,920 from July 2006 to June 2007.

SSA policy states that, if the source of payments for the care is federally funded
income based on need (for example, foster care under Title IV-E), the total payment is
considered cash income to the individual, and the SSI payment is reduced dollar for
dollar. 8

IMPROPER ACCOUNTING FOR BENEFITS

Our review disclosed that HI-DHS did not properly account for the Social Security
benefits of its beneficiaries. Specifically, we found that HI-DHS (1) improperly used
OASDI benefits of children who also received Title IV-E benefits, (2) did not conserve


8
    SSA, POMS SI 00835.706.C.5.
Page 5 - Peter D. Spencer

or return funds to SSA, (3) had not accurately recorded expenditures, (4) did not
timely record benefit payments, (5) had not established a dedicated account for SSI
recipients, and (6) did not establish direct deposit for all beneficiaries.

Use of OASDI Benefits for Children Who Received Title IV-E Benefits

HI-DHS did not properly account for the OASDI benefits received for 13 children who
also received Title IV-E benefits. Contrary to Federal regulations, HI-DHS used OASDI
benefits to partially reimburse itself for the foster care payments it disbursed to the
children’s providers. HI-DHS was unaware that it could not reimburse itself for the
State’s share of Title IV-E costs from a child’s OASDI benefits. As a result, 13 children
did not receive $43,050 in OASDI benefits to which they were entitled.

The Foster Care and Adoption Assistance Program, authorized under Title IV-E of
                        9
the Social Security Act, helps States provide care for children who need placement in
a foster family home or institution. The program provides Federal matching funds to
States that administer the program. Title IV-E benefits are administered by the
Department of Health and Human Services, Administration for Children and Families.

Federal regulations prohibit HI-DHS from using a child's OASDI benefits to reimburse
                                                 10
itself for the State’s share of Title IV-E costs. To receive Federal Title IV-E benefits,
HI-DHS must pay its share of the foster care costs with State funds. Therefore, the
OASDI benefits for a child who also receives Title IV-E benefits must be saved or
used for a child’s other needs.

For example, HI-DHS received Title IV-E benefits for a child who received $492 in
monthly OASDI benefits. The Accounting unit placed all the OASDI benefits in Hawaii’s
general fund to reimburse the State for the $529 of monthly foster care payments it
made to provide care for the child. Therefore, none of the $5,332 in OASDI benefits
was saved or used for the child’s other needs from July 2006 to June 2007. As a result
of our audit, HI-DHS plans to revise its procedures to require that the Accounting unit
properly account for OASDI benefits for children who also receive Title IV-E benefits.

Funds Not Conserved or Returned to SSA

HI-DHS did not return $19,710 in conserved funds to SSA for five children who were no
longer in its care. In addition, HI-DHS did not return $3,500 in erroneous SSI payments
to SSA for three children and conserve $7,270 in excess funds for four children. As a
result, HI-DHS improperly held $23,210 in funds for eight children and did not conserve
$7,270 for four children.

SSA policy requires that representative payees who are no longer serving as payee
for an individual return any funds to SSA for reissuance to either the successor payee
9
     Social Security Act § 470 et seq., 42 U.S.C. § 670 et seq.
10
     45 C.F.R. § 92.24.
Page 6 - Peter D. Spencer

or the beneficiary in direct payment. 11 Any benefits a former representative payee
receives must be returned to SSA. SSA policy also requires that representative payees
use OASDI and SSI payments for the immediate or reasonably foreseeable needs of
the beneficiary. Any remaining benefits must be conserved or invested for the
             12
beneficiary. In addition, SSA policy states that SSI dedicated funds can only be used
for a child’s medical treatment, education or job skills training, expenses related to his
personal needs assistance, special equipment, housing modification, therapy or
rehabilitation, or other items or services approved by SSA. 13

HI-DHS had not established adequate controls to ensure conserved funds or benefit
payments received after a child is no longer in its care are returned to SSA. HI-DHS
relied on its social workers to notify its Accounting unit when funds should be returned
to SSA. However, HI-DHS did not always adjust its accounting ledgers for unreported
changes in custody. Therefore, HI-DHS often did not return any funds or the correct
amount to SSA because the accounting ledgers were not accurate.

For 5 children, HI-DHS did not return conserved funds to SSA for beneficiaries
who were no longer in its care. For three children, HI-DHS did not return erroneous SSI
payments to SSA. For three children, HI-DHS received benefits in excess of the foster
care payments but did not instruct the Accounting unit to conserve any benefits. For
one child, HI-DHS improperly used SSI dedicated account funds that should have been
conserved for the beneficiary.

For example, in August 2007, a social worker submitted a request to the Accounting
unit to return $2,900 in OASDI funds to SSA for a child who was adopted in
February 2006. However, the Accounting unit was unaware the child had been
adopted and continued to account for the benefits and expenses as if the child was still
in HI-DHS’ custody. Since the Accounting unit did not correct the accounting records
after it learned of the adoption, HI-DHS only returned $2,900 of the $8,720 owed the
child. The remaining $5,820 in conserved funds was not returned.

Expenditures Not Recorded Accurately

HI-DHS did not accurately record expenditures for seven children. We found that
HI-DHS recorded monthly expenditures of $13,670 when the correct amount should
have been $5,950. These errors primarily occurred because the social workers did
not notify the Accounting unit of changes in the amount of monthly expenses for its
beneficiaries. As a result, HI-DHS overstated the monthly foster care expenses by
$7,720 and did not conserve these funds for its beneficiaries.



11
     SSA, POMS GN 00603.055.
12
     SSA, POMS GN 00603.001.A.
13
     SSA, POMS GN 00602.140.
Page 7 - Peter D. Spencer

SSA policy requires that representative payees use OASDI and SSI payments for the
immediate or reasonably foreseeable needs of the beneficiary. Any remaining benefits
must be conserved or invested for the beneficiary. 14

Benefit Payments Not Recorded Timely

HI-DHS did not record benefit deposits timely for 40 beneficiaries. HI-DHS received the
OASDI or SSI payments by direct deposit but did not obtain bank deposit information
from its Department of Budget and Finance for about 45 days after the month in which
the deposit was made. Therefore, the Accounting unit recorded deposits to the
accounting ledgers about 2 or 3 months after the benefits were deposited. As a result,
HI-DHS was unable to adequately monitor the amount of resources for SSI recipients or
timely determine the amount of benefits available for each child.

SSA’s Guide for Organizational Representative Payees requires that such payees
establish some form of a payee accounting system that will track for each beneficiary
the amount of benefits received, expended, and saved. The Guide also requires that
                                                            15
the payee post all income and expenses in a timely manner.

HI-DHS stated it has initiated corrective action to post benefit deposits timely. During
our review, the Department of Budget and Finance agreed to provide the Accounting
unit with deposit information each week.

Dedicated Account Not Established for SSI Recipients

HI-DHS had not established a dedicated account for large past-due payments for
SSI recipients. This occurred, in part, because of misinformation about the options
available for establishing these accounts as well as complexities in Hawaii’s accounting
and banking procedures. Because of the lack of a dedicated account, SSA did not
disburse $29,700 in past-due SSI payments to four disabled foster care children.

The Act requires that representative payees establish and maintain an account in a
financial institution for certain large past-due payments for SSI recipients under age 18.
These dedicated accounts must be maintained separately from other savings or
checking accounts for the beneficiary. A representative payee may use an approved
collective account for more than one beneficiary’s dedicated account funds. Except for
certain past-due payments that may be received later, no additional funds can be
deposited in the separate account. 16 In addition, the Act restricts how dedicated



14
     SSA, POMS GN 00603.001.A.
15
  Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2005, page 33.
16
     SSA, POMS GN 00603.025.B.
Page 8 - Peter D. Spencer

account funds may be used. A representative payee is allowed to use the funds for the
child’s medical treatment and education or job skills training. Other expenses may be
allowed if they benefit the child or are related to the child’s impairment. 17

HI-DHS was unaware it could open a collective account for the dedicated funds.
Instead, HI-DHS believed that a separate bank account for each child was required.
HI-DHS had explored various options to establish dedicated accounts but encountered
problems because of the State’s accounting and banking procedures. However, during
our review, HI-DHS stated it could obtain a collective account, in its State accounting
system, for dedicated funds.

During an interview with the foster parent of a child who was owed $4,672 in dedicated
funds, we were informed the child had needs that could have been met with these
funds. 18 The foster parent indicated the child needed a new pair of special shoes with
braces, which cost about $600. Unless a dedicated account is established, SSI
recipients may not receive large past-due payments to which they are entitled.

Direct Deposit Not Established for All Beneficiaries
                                          19
We found that 35 (29 percent) of the 120 beneficiaries in current pay status received
their benefits by paper checks rather than direct deposit. After SSA reviewed HI-DHS’
representative payee activities in 2006, HI-DHS converted most of its beneficiaries to
direct deposit. However, many of the children who entered HI-DHS’ custody after that
time still received paper checks.

SSA’s Guide for Organizational Representative Payees encourages that such payees
                                                             20
have funds directly deposited to an interest-bearing account. Direct deposit is a more
secure way of receiving payments and protects beneficiaries from the loss, theft, or
delays associated with mailing paper checks. In addition, direct deposit saves the time
and effort of processing benefit checks.




17
     SSA, POMS GN 00602.140.B.3.
18
    We selected 10 beneficiaries for interviews, which were conducted by individuals from SSA’s field
offices in Hawaii.
19
     As of July 2007.
20
  Social Security, Representative Payment Program, Guide for Organizational Representative Payees,
September 2005, page 19.
Page 9 - Peter D. Spencer

USE OF RETROACTIVE BENEFITS TO OFFSET PRIOR FOSTER CARE EXPENSES

HI-DHS did not obtain SSA approval to reimburse itself for prior foster care expenses
from the retroactive benefit payments of two children. For some children, the first check
received by a representative payee is for past-due benefits. For two children in our
sample, HI-DHS received $14,000 in past-due benefits. HI-DHS stated that most of
its employees were not aware of the requirement to obtain SSA approval before
reimbursing itself for prior foster care expenses from a child’s retroactive benefit
payment.

Generally, a representative payee may satisfy beneficiaries’ past debts if their current
and reasonably foreseeable needs are met. However, a creditor payee must obtain
SSA approval before it uses benefits to reimburse itself. For foster care agencies that
request payment of past charges for care and maintenance, SSA must obtain a bill or
statement of the amount owed. The statement should designate the months for which
                                                             21
care was provided and the monthly customary care charges.

CONCLUSIONS AND RECOMMENDATIONS

HI-DHS had significant internal control weaknesses that prevented it from meeting
its responsibilities as a representative payee. In addition, SSA previously identified
and reported many of these same weaknesses during prior reviews. We found that
39 (78 percent) of the 50 beneficiaries in our sample had 1 or more errors. These
errors generally occurred because HI-DHS did not fully understand its representative
payee responsibilities, and there was a lack of communication within HI-DHS and
between HI-DHS and SSA. As a result, HI-DHS owed 36 beneficiaries $114,680 in
conserved funds and needs to repay SSA $65,180 in overpayments for 8 beneficiaries.
We also estimate that HI-DHS owes about $323,400 in conserved funds to an
additional 101 children and was overpaid about $183,790 in benefits for an additional
22 children (see Appendix D).

HI-DHS had taken corrective action on some of the errors identified during our review
and initiated plans to improve its performance as a representative payee. However,
HI-DHS should provide SSA with a corrective action plan to ensure these deficiencies
are fully addressed. Given the pervasiveness of the conditions identified, we believe
SSA and HI-DHS should thoroughly review the receipt and disbursement of Social
Security benefits for all beneficiaries in HI-DHS’ care. We recommend that SSA
ensure HI-DHS:




21
     SSA, POMS GN 00602.030.
Page 10 - Peter D. Spencer

1.   Returns or conserves $98,610 in benefits for 15 children because HI-DHS did not
     report changes in beneficiary circumstances affecting their entitlement to benefits.
     This consists of
     -   $51,300 in improper payments disbursed to HI-DHS for nine children who are
         no longer in its care.
     -   $29,790 in SSI overpayments to SSA for two children who had moved into
         HI-DOH foster homes.
     -   $12,600 in OASDI and SSI benefits that should have been saved for four
         children who had moved into HI-DOH foster homes.
     -   $4,920 in overpaid benefits for two SSI recipients who also received Title IV-E
         benefits.

2.   Improves its controls over reporting changes in beneficiary circumstances that
     affect their eligibility for benefits (for example, changes in custody and Title IV-E
     benefits payable to SSI recipients).

3.   Returns or conserves $81,250 in funds for 32 children because HI-DHS did not
     properly account for benefit payments received. This consists of
     -   $43,050 in unrecorded OASDI funds for 13 children who also received
         Title IV-E benefits.
     -   $19,710 in funds for five children who are no longer in its care, $3,500 in SSI
         payments not returned to SSA for three children, and $7,270 in excess funds
         not conserved for four children.
     -   $7,720 in monthly benefits in excess of the monthly foster care payments for
         seven children.

4.   Improves its controls to ensure the proper accounting for OASDI and SSI benefits.
     Specifically, HI-DHS needs to ensure it
     -   saves or spends OASDI benefits on behalf of children who also receive
         Title IV-E benefits.
     -   returns conserved funds that belong to beneficiaries no longer in its care and
         benefit payments received after HI-DHS no longer has legal custody of children
         to SSA.
     -   accurately records the expenses of each child.
     -   records benefit deposits in a timely manner.
     -   establishes a dedicated account for large past-due payments for SSI recipients.
     -   establishes direct deposit for all beneficiaries in its care.
Page 11 - Peter D. Spencer

5.     Develops procedures to obtain SSA’s approval to reimburse itself for prior foster
       care expenses from a child’s retroactive benefit payment. In addition, HI-DHS
       should provide supporting documentation to SSA for how it used the $14,000 in
       past-due benefits for two children.

6.     Reviews and takes corrective actions for all beneficiaries in its care to identify
       payment errors because HI-DHS (1) did not report changes in beneficiary
       circumstances affecting their entitlement to benefits or (2) improperly accounted
       for benefit payments received.

AGENCY COMMENTS
SSA and HI-DHS agreed with all of our recommendations. See Appendices E and F for
the text of SSA’s and HI-DHS’ comments.

OTHER MATTERS

While conducting our review, we identified three areas where SSA needs to improve its
performance. Specifically, SSA (1) did not terminate benefit payments timely after
HI-DHS reported that four children were no longer in its care, (2) paid incorrect SSI
amounts to three SSI recipients, and (3) improperly sent dedicated account funds to
HI-DHS for one SSI recipient.

Terminating Benefit Payments

SSA did not terminate benefit payments timely after HI-DHS reported that four children
were no longer in its care. On four occasions, HI-DHS reported to SSA that three
siblings had been appointed a guardian in October 2004. However, SSA continued
to disburse OASDI benefits to HI-DHS for another 28 months. As a result, SSA
improperly sent $18,027 in benefits to HI-DHS that should have been paid to the
children’s new legal guardian. HI-DHS also reported to SSA that a child was adopted
in February 2006, but SSA continued to disburse benefits through January 2007. As
a result, SSA improperly sent $7,602 in benefits to HI-DHS for 11 months.

Incorrect SSI Payments

SSA paid the incorrect amount of SSI payments for three recipients. SSA counted the
foster care payments HI-DHS made to the foster parents as income to the children,
resulting in a $207 monthly decrease in their SSI payments during 2007. The source
of funding for the foster care payments was the SSI payments and State foster care
funds. Therefore, the children paid their food and shelter costs using their own income,
not income from a third party. In general, SSI payments of children in traditional foster
care are not reduced if they pay for their food and shelter with their own income. 22 As a
result, these children were underpaid approximately $2,480 in benefits annually.

22
     SSA, POMS SI 00835.790.A.
Page 12 - Peter D. Spencer

Dedicated Account Funds

SSA improperly sent dedicated account funds to HI-DHS for one SSI recipient.
Although HI-DHS had not established a dedicated account to receive large past-due
payments for SSI recipients, SSA disbursed $4,557 in dedicated funds to HI-DHS for
one recipient.




                                             Patrick P. O’Carroll, Jr.
                                     Appendices
APPENDIX A – Acronyms

APPENDIX B – Representative Payee Responsibilities

APPENDIX C – Scope and Methodology

APPENDIX D – Sampling Methodology and Results

APPENDIX E – Agency Comments

APPENDIX F – Hawaii Department of Human Services Comments

APPENDIX G – OIG Contacts and Staff Acknowledgments
                                                       Appendix A

Acronyms
Act      Social Security Act
C.F.R.   Code of Federal Regulations
HI-DHS   Hawaii Department of Human Services
HI-DOH   Hawaii Department of Health
OASDI    Old-Age, Survivors and Disability Insurance
OIG      Office of the Inspector General
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
                                                                       Appendix B

Representative Payee Responsibilities
Representative payees are responsible for using benefits to serve the beneficiary’s best
interests. The responsibilities include the following. 1

•    Determine the beneficiary’s current needs for day-to-day living and use his or her
     payments to meet those needs.

•    Conserve and invest benefits not needed to meet the beneficiary’s current needs.

•    Maintain accounting records of how the benefits are received and used.

•    Report events to the Social Security Administration (SSA) that may affect the
     individual’s entitlement or benefit payment amount.

•    Report any changes in circumstances that would affect their performance as a
     representative payee.

•    Provide SSA an annual Representative Payee Report to account for benefits spent
     and invested.

•    Return any payments to SSA for which the beneficiary is not entitled.

•    Return conserved funds to SSA when no longer serving as the representative payee
     for the beneficiary.




1
    SSA, Program Operations Manual System GN 00502.113.
                                                                      Appendix C

Scope and Methodology
Our audit covered the period July 1, 2006 through June 30, 2007. However, we
expanded our scope to include additional months before and after this period to fully
develop the effect of some issues, such as changes in custody that were not reported
timely. To accomplish our objectives, we:

•   Reviewed applicable Federal laws and regulations and Social Security
    Administration (SSA) policies and procedures for representative payees.

•   Reviewed the Hawaii Department of Human Services’ (HI-DHS) procedures over its
    representative payee activities.

•   Interviewed SSA employees at the San Francisco Regional Office and Honolulu
    Field Office to obtain background information about the performance of HI-DHS.

•   Interviewed employees from the Department of Health and Human Services,
    Administration for Children and Families.

•   Obtained from SSA’s payment records and Representative Payee System a list of
    individuals who were in the representative payee’s care.

•   Compared and reconciled SSA’s payment records to the Representative Payee
    System list to identify the population of beneficiaries who received one or more
    benefit payments from July 1, 2006 through June 30, 2007.

•   Reviewed the representative payee’s internal controls over the receipt and
    disbursement of Social Security benefits.

•   Reviewed the receipt and expenditure of Social Security benefits for 50 beneficiaries
    from July 1, 2006 through June 30, 2007.

•   Determined whether HI-DHS reported any changes or events for its beneficiaries
    that could affect their amount of or entitlement to OASDI or SSI benefits.

•   Performed the following tests for a random sample of 50 beneficiaries:

       Compared and reconciled benefit amounts received according to HI-DHS’
        records to benefit amounts paid according to SSA’s records.

       Reviewed HI-DHS’ accounting records to determine whether benefits were
        properly spent or conserved on the beneficiary’s behalf.

                                           C-1
       Reviewed case records to determine whether the children were still in HI-DHS’
        care from July 1, 2006 through June 30, 2007.

•   Interviewed 10 beneficiaries to determine whether their basic needs were being
    met. 1

We determined the computer-processed data to be partially reliable for our intended
use. We tested the receipt of Social Security benefits recorded in HI-DHS’ accounting
system. We performed tests to determine the completeness, accuracy, and validity
of the data. These tests allowed us to assess the reliability of the data and achieve
our audit objectives. However, because of weaknesses in HI-DHS’ controls over the
disbursement of Social Security benefits, we could not rely on the information in its
accounting records.

We performed our field work in Honolulu, Hawaii, and Richmond, California, between
August 2007 and April 2008. We conducted this performance audit in accordance with
generally accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to provide a
reasonable basis for our findings and conclusions based on our audit objectives.
We believe the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.




1
  We selected 10 beneficiaries for interviews, which were conducted by individuals from SSA’s field
offices in Hawaii.


                                                   C-2
                                                                     Appendix D

Sampling Methodology and Results
We obtained from the Social Security Administration’s (SSA) payment records and
Representative Payee System a list of individuals who were in the representative
payee’s care during the period of July 2006 through June 2007. Using these data, we
identified a population of 191 beneficiaries for whom the Hawaii Department of Human
Services (HI-DHS) received at least 1 benefit payment during this period.

We selected a random sample of 50 beneficiaries for review. For each beneficiary, we
(1) determined whether HI-DHS reported any changes or events for its beneficiaries
that could affect their amount of, or entitlement to, Old-Age, Survivors and Disability
Insurance or Supplemental Security Income payments; (2) compared and reconciled
benefit amounts received per HI-DHS’ records and benefit amounts paid per SSA’s
records; (3) reviewed HI-DHS’ accounting records to determine whether benefits were
properly spent or conserved on the beneficiary’s behalf, and (4) reviewed HI-DHS
records to determine whether the beneficiaries were still in HI-DHS’ care from July 2006
to June 2007.

We found that 39 (78 percent) of the 50 beneficiaries in our sample had 1 or more
errors. As a result, HI-DHS owed 36 beneficiaries $114,680 in conserved funds and
needs to repay SSA $65,180 in overpayments for 8 beneficiaries. Based on our
sample findings, we also estimate that HI-DHS owes about $323,400 in conserved
funds to an additional 101 children and was overpaid about $183,790 in benefits for an
additional 22 children. The following tables provide the details of our sample results
and estimates.

      Table 1: Population and Sample Size               Population       Sample Size
 Beneficiaries                                                  191                50

            Table 2: Conserved Funds                      Number           Amount
 Sample Results                                                    36       $114,682
 Estimate of additional beneficiaries affected                    101       $323,403
 Estimate of total beneficiaries affected                         137       $438,085

               Table 3: Overpayments                      Number           Amount
 Sample Results                                                     8        $65,175
 Estimate of additional beneficiaries affected                     22       $183,793
 Estimate of total beneficiaries affected                          30       $248,968
                                                                      Appendix E

Agency Comments

Wednesday, August 20, 2008
SF Reply -- Signed Draft Report (A-09-08-28045)

Jim,
Thank you for the opportunity to comment on the OIG draft report, “Hawaii Department
of Human Services - An Organizational Representative Payee for the Social Security
Administration” Number A-09-08-28045.
We found the draft report to be very thorough. HI-DHS has already taken corrective
action on some of the errors identified during the review and initiated plans to improve
its performance as a representative payee. SSA has a corrective action plan to ensure
these deficiencies are fully addressed. Given the pervasiveness of the conditions
identified, we agree to closely monitor the relationship between SSA and HI-DHS and
thoroughly review the receipt and disbursement of Social Security benefits for all
beneficiaries in HI-DHS’ care as well as to ensure full compliance with the cited
recommendations. These activities will be completed within 90 days of the issuance of
the final report.
The field office has provided and will continue to provide the training needed, ongoing
communications and support needed for the payee's compliance with SSA policies. If
your staff have any questions regarding these comments, they should contact DeAnna
Barrios-Terry (510) 970-8213 in our Center for Programs Support. We have attached a
copy of the draft report for reference purposes.
Pete
                                  Appendix F

Hawaii Department of Human Services
Comments
F-1
F-2
F-3
F-4
                                                                    Appendix G

OIG Contacts and Staff Acknowledgments
OIG Contacts

   James J. Klein, Director, San Francisco Audit Division, (510) 970-1739

   Jack H. Trudel, Audit Manager, (510) 970-1733

Acknowledgments

In addition to those named above:

   James Sippel, Senior Auditor

   Manfei Lau, Auditor

For additional copies of this report, please visit our web site at
www.socialsecurity.gov/oig or contact the Office of the Inspector General’s Public
Affairs Staff Assistant at (410) 965-4518. Refer to Common Identification Number
A-09-08-28045.
                           DISTRIBUTION SCHEDULE

Commissioner of Social Security
Office of Management and Budget, Income Maintenance Branch
Chairman and Ranking Member, Committee on Ways and Means
Chief of Staff, Committee on Ways and Means
Chairman and Ranking Minority Member, Subcommittee on Social Security
Majority and Minority Staff Director, Subcommittee on Social Security
Chairman and Ranking Minority Member, Subcommittee on Human Resources
Chairman and Ranking Minority Member, Committee on Budget, House of
Representatives
Chairman and Ranking Minority Member, Committee on Government Reform and
Oversight
Chairman and Ranking Minority Member, Committee on Governmental Affairs
Chairman and Ranking Minority Member, Committee on Appropriations, House of
Representatives
Chairman and Ranking Minority, Subcommittee on Labor, Health and Human Services,
Education and Related Agencies, Committee on Appropriations,
 House of Representatives
Chairman and Ranking Minority Member, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Subcommittee on Labor, Health and Human
Services, Education and Related Agencies, Committee on Appropriations, U.S. Senate
Chairman and Ranking Minority Member, Committee on Finance
Chairman and Ranking Minority Member, Subcommittee on Social Security and Family
Policy
Chairman and Ranking Minority Member, Senate Special Committee on Aging
Social Security Advisory Board
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                 Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                           Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                          Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
